Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





      NURSING HOME 

  COMPLAINT INVESTIGATIONS





                    Daniel R. Levinson

                     Inspector General 


                       July 2006

                     OEI-01-04-00340

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                      S U M M A R Y               



                  OBJECTIVES
                  (1) To assess whether State agencies investigate nursing home
                  complaints in accordance with program requirements.

                  (2) To determine the extent to which the Centers for Medicare &
                  Medicaid Services (CMS) monitors State agency performance of nursing
                  home complaint investigations.


                  BACKGROUND
                  The nursing home complaint process is the front-line response system
                  for addressing problems raised by residents, their families, and nursing
                  home staff. However, in recent years various Government reports have
                  documented vulnerabilities in nursing home complaint investigations.

                  CMS, in conjunction with the State agencies, oversees Medicare- and
                  Medicaid-funded nursing homes to ensure that they meet Federal
                  standards. State survey agencies investigate nursing home complaints
                  on behalf of CMS. CMS’s State Operations Manual (SOM), which is
                  binding on Medicare-certified and Medicare-Medicaid dually certified
                  nursing homes, provides State agencies with procedural guidelines for
                  nursing home complaint investigations. These guidelines include a
                  detailed protocol for the complaint investigation process, including
                  directions on complaint intake, triage and prioritization, and followup.

                  CMS annually evaluates each State agency’s nursing home complaint
                  investigation process according to criteria set forth in the State
                  Performance Standards that address complaint prioritization,
                  investigation timeframes, and other procedural requirements.
                  Beginning in 2004, CMS required all State agencies to enter all
                  complaint investigation information into the ASPEN
                  Complaints/Incidents Tracking System (ACTS). CMS uses the ACTS to
                  evaluate complaint investigations nationwide.

                  This report draws on various data from all 50 States and the District of
                  Columbia. We analyzed calendar year 2004 ACTS data, State agencies’
                  written policies, data from a file review of selected complaints, State
                  agency survey data, and CMS regional office interviews to evaluate
                  State agency complaint investigation performance and CMS’s oversight
                  of that performance. Pennsylvania and Washington had waivers
                  exempting them from using ACTS; therefore, we collected their data



OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       i
E X E C U T I V E                        S U            M M A R Y


                   separately. For these two States, we were unable to distinguish which
                   nursing homes were certified only for Medicaid.


                   FINDINGS
                   State agencies did not investigate some of the most serious nursing
                   home complaints within the SOM-required timeframes. In calendar
                   year 2004, State agencies did not investigate 7 percent of complaints
                   alleging immediate jeopardy, the most serious complaint category, in
                   the required 2-day timeframe. Furthermore, State agencies did not
                   investigate 27 percent of complaints alleging actual harm (high), the
                   second most serious complaint category, within the required 10-day
                   timeframe. CMS regional offices and State agencies report that staff
                   shortages and insufficient training limit State agencies’ ability to
                   investigate complaints within the 10-day required timeframe.
                   While the ACTS shows potential for managing complaints, State
                   agencies have not taken full advantage of this system. State
                   agencies’ use of their own data systems in addition to the ACTS,
                   technical problems with the ACTS, and lack of training have hindered
                   its use as a complaint management tool.
                   Most State agencies’ written policies and procedures generally
                   incorporate the SOM; however, those policies and procedures do
                   not incorporate all of the SOM’s guidelines. Several of the 42 State
                   agencies’ policies and procedures we reviewed do not incorporate
                   guidelines pertaining to intake, triage and prioritization, and followup.
                   For example, only 19 State agencies’ policies and procedures incorporate
                   the SOM requirement that agencies prioritize all nonimmediate
                   jeopardy complaints within 2 days.
                   In a five-State file review, State agencies followed protocols for
                   complaint intake and triage; however, many follow-up letters to
                   complainants lacked meaningful information. Although 86 and
                   92 percent of the complaint files included letters to the nursing homes
                   and complainants, respectively, letters to complainants often lacked
                   comprehensive information about the complaints such as acknowledging
                   the complainant’s concern and summarizing the investigation methods.
                   CMS oversight of nursing home complaint investigations is limited.
                   We identified four limitations to CMS oversight of nursing home
                   complaint investigations. First, the State Performance Standard for
                   complaints alleging actual harm (high) measures whether State
                   agencies investigate all of these complaints within an average of

 OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   ii
E X E C U T I V E                        S U            M M A R Y


                   10 working days, with all complaint investigations completed within
                   20 working days. This standard is more lenient than the SOM’s 10-day
                   investigation timeframe for these complaints. Second, CMS conducts
                   few Federal Oversight and Support Surveys (FOSS). The FOSS allows
                   CMS’s regional offices an opportunity to observe a State agency’s
                   complaint investigation process. However, the SOM states that State
                   survey agencies should provide CMS with at least 2 weeks’ advance
                   notice, thus limiting the use of the FOSS for the most serious nursing
                   home complaints. Third, CMS regional offices do not usually follow up
                   on State Performance Standard failures until a year after the failure
                   occurs. Finally, CMS regional offices lack sufficient expertise in the
                   ACTS to use it for oversight or to help State agencies use it.


                   RECOMMENDATIONS
                   Our review found that: (1) many State agencies did not meet
                   investigation timeframes for serious complaints, (2) State agencies do
                   not incorporate some CMS guidelines for complaint investigations,
                   (3) oversight by CMS regional offices is limited, and (4) State agencies
                   are not fully utilizing the ACTS despite its potential for complaint
                   management. To address these problems, we recommend that CMS:
                   Strengthen the oversight of nursing home complaint investigations by:

                           Requiring State agencies to meet the 10-day timeframe for
                           investigating complaints alleging actual harm (high). CMS uses the
                           State Performance Standards to hold State agencies accountable for
                           the timeliness of their complaint investigations, yet the performance
                           standard for complaints alleging actual harm (high) is more lenient
                           than the 10-day standard required by the SOM. CMS should make
                           the State Performance Standard timeframe consistent with the
                           SOM. This would strengthen the State Performance Standards’
                           emphasis on complaints alleging actual harm (high) in nursing
                           homes by requiring State agencies to investigate 100 percent of
                           these complaints within 10 working days.
                           Conducting additional followup to the State Performance Standard
                           Reviews. Many CMS regional offices reported that they generally do
                           not follow up on State Performance Standard failures until the next
                           performance review, a year later. CMS regional offices should
                           increase oversight of the State Performance Standards, which
                           include the timely investigation of complaints alleging both
                           immediate jeopardy and actual harm (high) and the proper

 OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       iii
E   X     E C     U T     I   V    E            S      U M             M       A      R Y



                                      prioritization and investigation of complaints. This could be
                                      accomplished by following up throughout the year, either through
                                      onsite visits or regular checks of ACTS data.
                                      Eliminating the 2-week advance notice for the FOSS required in the
                                      SOM to allow regional offices the option of overseeing complaint
                                      investigations for the most serious nursing home complaints. The
                                      FOSS provides CMS regional offices with a valuable oversight tool
                                      for nursing home complaint investigations. Pursuant to the SOM,
                                      State survey agencies should provide CMS with at least 2 weeks’
                                      notice of all scheduled surveys. Because of this provision, it is
                                      unlikely that CMS can conduct the FOSS for complaints alleging
                                      immediate jeopardy and actual harm (high) because of their
                                      respective 2- and 10-day investigation timeframes. CMS should
                                      eliminate this advance notice requirement to allow its regional
                                      offices to more fully oversee State agencies’ investigations of the
                                      most severe complaints.
                              Offer additional ACTS training to its regional offices, as well as to State
                              agencies. The ACTS has the potential to improve complaint management
                              and oversight at the State agencies and CMS regional offices. However,
                              both groups reported insufficient ACTS training to use the system to its
                              full potential. CMS should offer the State agencies further training
                              targeted to complaint management. In addition, CMS should continue to
                              train its regional office staff on the ACTS functions specifically related to
                              overseeing State agencies.

                              To help minimize the time State agencies spend manually entering
                              complaint information into both ACTS and State-specific complaint
                              tracking systems, CMS should provide specific training regarding how
                              State agencies can use ACTS features designed to download information
                              into a State system or capture State-required information.



                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              In its comments on the draft report, CMS concurred with three of our
                              four recommendations. The agency concurred with our recommendation
                              to strengthen the oversight of nursing home complaint investigations.
                              CMS also concurred with our recommendations to conduct meaningful
                              followup to the State Performance Standards and to offer additional


        OEI-01-04-00340       N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       iv
E X E C U T I V E                        S U            M M A R Y



                   training to CMS regional offices and State agencies. CMS outlined
                   specific steps it will take to address each of these recommendations.

                   CMS did not concur with our recommendation to eliminate the 2-week
                   advance notice for the FOSS set forth in the SOM to allow regional
                   offices the option of overseeing complaint investigations for the most
                   serious nursing home complaints. CMS does not consider this advance
                   notice to be an important barrier to conducting a FOSS survey and
                   indicated it could not assume the added administrative costs and
                   challenges under the current resource constraints. CMS also notes that
                   regional offices have the authority to conduct onsite visits at nursing
                   homes at any time and for any reason.

                   With respect to our third recommendation, we remain concerned that
                   the 2-week advance notice hinders CMS’s ability to conduct FOSS for
                   complaints alleging immediate jeopardy or actual harm (high). The
                   2-week advance notice requirement limits the effectiveness of CMS
                   oversight of State agencies’ investigations of nursing homes. We
                   encourage CMS to develop a policy that balances the resource
                   constraints and the logistical challenge of scheduling surveys in a tight
                   timeframe with the need for CMS to monitor State agency
                   investigations of the most serious nursing home complaints.




 OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S      v
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   State agencies did not investigate some complaints timely . . . . . . 8 


                   ACTS implementation remains limited . . . . . . . . . . . . . . . . . . . . . 11 


                   State agencies’ policies do not address all SOM guidelines. . . . . . 12 


                   In five-State file review, follow-up letters lack information . . . . . 13 


                   CMS oversight is limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                   Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 19 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                   A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                   B: 2004 State ACTS Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 

Δ   I N T R O D U C T I O N                                                       



                  OBJECTIVES
                  (1) To assess whether State agencies investigate nursing home
                  complaints in accordance with program requirements.

                  (2) To determine the extent to which the Centers for Medicare &
                  Medicaid Services (CMS) monitors State agency performance of nursing
                  home complaint investigations.


                  BACKGROUND
                  The nursing home complaint process is the front-line response system to
                  address problems and concerns raised by residents, their families, and
                  nursing home staff. However, recent studies have shown that
                  weaknesses exist in survey and complaint investigation activities
                  performed by CMS and the State survey agencies (State agencies) that
                  oversee nursing homes.1
                  Nursing Home Oversight
                  CMS, in conjunction with the State agencies, oversees nursing homes to
                  ensure that they meet Federal standards. The State agencies, among
                  other functions, conduct certification surveys on behalf of CMS. State
                  agencies must conduct certification surveys, which evaluate the quality
                  of care nursing homes provide, on average every 12 months but no less
                  frequently than every 15 months.2 In addition to certification surveys,
                  State agencies conduct complaint investigations. While complaint
                  investigations primarily serve as a response system for health and
                  safety concerns, they also allow State agencies to evaluate the quality of
                  care the nursing homes provide between certification surveys.
                  Complaint Investigations
                  Sections 1819(g)(4)(a) and 1819(g)(5)(a) of the Social Security Act
                  require each State to maintain procedures and adequate staff to
                  investigate and report on the nursing home complaints they receive.

                  CMS’s State Operations Manual (SOM) outlines the process that State
                  agencies must follow when managing complaint investigations.3 As part
                  of the agreements with CMS under which State survey agencies
                  operate, SOM requirements are contractually binding on
                  Medicare-certified and Medicare-Medicaid dually certified nursing
                  homes.4 In November 2003, CMS issued a program memorandum to
                  provide State agencies with additional direction and guidelines for
                  nursing home complaint management.5 This memorandum, which CMS


OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     1
I N T R O D        U C T              I O N


                    has since incorporated into the SOM, provides a detailed protocol for
                    State agencies to follow throughout the complaint investigation process,
                    including guidelines for complaint intake, triage and prioritization, and
                    followup.6
                    Intake. The SOM instructs State agencies to collect comprehensive
                    information from complainants. This information includes, but is not
                    limited to, information about the complainant, the nursing home, the
                    individuals involved and affected, a narrative of the allegation, how and
                    why the complainant believes the problem leading to the allegation
                    occurred, and the complainant’s expectation for resolution.7 The SOM
                    also directs State agencies to offer information to complainants during
                    intake. This information includes, at a minimum, the State agency’s
                    policies and procedures, the course of action the State agency will take
                    and the anticipated timeframes, relevant referral information, and a
                    contact name and phone number for followup by the complainant.8
                    Triage and prioritization. The SOM requires that a qualified professional,
                    who has knowledge of current clinical standards and Federal
                    requirements, prioritize each complaint. Complaints alleging
                    immediate jeopardy must be prioritized and investigated within
                    2 working days of receipt, while all nonimmediate jeopardy complaints
                    must be prioritized within 2 working days of receipt. The priority
                    category that the State agency assigns to a complaint is critical because
                    it determines the action and timing of the investigation. The priority
                    categories are:

                    • 	 Immediate jeopardy: The SOM defines immediate jeopardy, the most
                        serious allegation category, as “a situation in which the provider’s
                        noncompliance with one or more requirements of participation has
                        caused, or is likely to cause, serious injury, harm, impairment, or
                        death to a resident.”9 If the State agency determines that
                        immediate jeopardy may be present and ongoing, the SOM requires
                        the agency to investigate these complaints onsite within 2 working
                        days of receipt.

                    • 	 Actual harm (high): The State agency assigns the highest level of
                        actual harm, which is the second most serious allegation category,
                        when “a provider’s alleged noncompliance with one or more
                        requirements or conditions may have caused harm that negatively
                        impacts the individual’s mental, physical, and/or psychosocial status
                        and is of such consequence to the person’s well being that a rapid
                        response by the State agency is indicated.”10 The SOM directs State

 OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     2
I   N T    R O        D   U      C T            I    O       N


                                      agencies to investigate complaints alleging actual harm (high) onsite
                                      within 10 working days of complaint receipt.

                              • 	 All others: For complaints less serious than immediate jeopardy and
                                  actual harm (high), the State agency decides, based on the intake
                                  information, whether to investigate onsite, perform a desk review of
                                  the complaint, or refer the complaint to a more appropriate agency.
                              Followup. After investigating the allegation, the State agency must
                              provide the complainant and the nursing home with a written report of
                              the investigation findings. The SOM directs State agencies to draw
                              upon the following information in these reports: acknowledgment of the
                              complainant’s concerns, the State agency’s authority to investigate
                              complaints, a summary of the investigation methods, an explanation of
                              the decisionmaking process, a summary of the State agency’s findings,
                              any follow-up action to be taken, and referral of information to other
                              agencies, when appropriate.11
                              CMS Oversight of State Agency Complaint Investigations
                              In October 2000, CMS began the State Performance Standard Reviews,
                              which establish performance standards for State agencies.12 These
                              annual reviews serve as CMS’s primary oversight mechanism for State
                              agencies. The 2004 performance standard for complaint investigations
                              includes the following three conditions (referred to as emphases)
                              pertaining to nursing homes:
                              o Prioritization of complaints—For 90 percent of randomly selected
                                  complaints, the CMS regional office must agree with the State
                                  agency’s prioritization of the complaint.
                              o Investigation of complaints—

                                              o            Immediate jeopardy: The State agency must investigate
                                                           all immediate jeopardy complaints onsite within
                                                           2 working days.

                                              o            Actual harm (high): The State agency must investigate all
                                                           complaints alleging actual harm (high) onsite in an
                                                           average of 10 working days, with all investigations
                                                           completed within 20 working days.13
                              o Complaint investigation procedures—The State agency must follow
                                  CMS instructions for handling complaints for no less than
                                  80 percent of nursing home complaints. These instructions include
                                  contacting complainants with investigation results and having


    OEI-01-04-00340           N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                 3
I N T R O D        U C T              I O N


                        qualified surveyors complete the nursing home survey, among
                        others.14
                    The 2004 State Performance Standard reports show that many State
                    agencies failed to meet performance standard timeframes for
                    investigating nursing home complaints. Of the 50 States and the
                    District of Columbia, 21 State agencies failed to meet timeframes for
                    investigating complaints assigned immediate jeopardy and 37 failed to
                    meet timeframes for investigating complaints assigned
                    actual harm (high).
                    ASPEN Complaints/Incidents Tracking System
                    Effective January 1, 2004, CMS requires State agencies to enter all
                    complaint investigation information into the ASPEN
                    Complaints/Incidents Tracking System (ACTS).15 CMS uses the ACTS
                    to evaluate complaint investigations nationwide. For each complaint,
                    the ACTS contains information from the complaint intake through
                    closure, including key dates, the prioritization level, overall findings,
                    proposed action, and the reason the complaint was closed. The ACTS
                    includes more comprehensive complaint information than the previous
                    repository for nationwide complaint data, the Online Survey
                    Certification and Reporting system (OSCAR).
                    Federal Oversight and Support Surveys
                    Federal Oversight and Support Surveys (FOSS) provide CMS with
                    valuable opportunities to observe a State agency’s complaint
                    investigation process in action. CMS regional offices conduct the FOSS
                    for State agency nursing home surveys, including complaint
                    investigations. During a FOSS, regional office surveyors accompany
                    State agency surveyors and review their performance in conducting the
                    survey or complaint investigation. Regional office surveyors discuss the
                    State agency surveyors’ performance with them following the survey;
                    identify surveyor training needs, if appropriate; and provide the State
                    agency with a numerical rating of the surveyors’ performance.16
                    Concerns About Nursing Home Complaints
                    In recent years, various Government reports and press articles have
                    documented vulnerabilities in nursing home complaint investigations.
                    Some of these reports have resulted in policy modifications and
                    increased oversight by CMS.

                    Two 1999 Government Accountability Office (GAO) reports documented
                    problems with State agency complaint management and with CMS’s
                    oversight of the State agencies. In one report, GAO found that CMS

 OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     4
I N T R O D        U C T              I O N


                    provided minimal guidance to State agencies on prioritization and
                    investigation timeframes for nonimmediate jeopardy complaints,
                    resulting in varying timeframes for complaint investigations. 17
                    Furthermore, GAO reported that CMS conducts very few oversight
                    surveys for complaint investigations. CMS addressed some of these
                    concerns by instituting the State Performance Standards and the ACTS,
                    both of which provide CMS with greater oversight capabilities. CMS
                    created the actual harm triage category in response to another
                    1999 GAO report that found that State agencies were understating the
                    seriousness of complaints and were failing to investigate serious
                    complaints promptly.18
                    In July 2003, a GAO official testified before the Senate Finance
                    Committee that timeliness of complaint investigations by State agencies
                    remained problematic and that the State Performance Standards did
                    not provide CMS with enough information to foster improvement.19
                    Subsequently, in November 2003, CMS released a memorandum that
                    addressed GAO recommendations to provide State agencies with
                    additional guidelines for complaint investigations.

                    Despite these policy changes and the provision of additional guidance in
                    the SOM, accounts from individual States document continued problems
                    with nursing home complaint investigations. For example, an Office of
                    Inspector General June 2004 report (A-04-03-07027) documented
                    vulnerabilities in Alabama’s survey agency relative to physical and
                    sexual abuse complaints in nursing homes. 20 The State agency did not
                    investigate these complaints within established timeframes, nor did it
                    appropriately track and monitor complaints. The review also found that
                    the State agency did not have adequate policies and procedures for the
                    intake of abuse complaints.

                    Similarly, in August 2004, a series of articles in the “Providence
                    Journal” highlighted a Rhode Island nursing home about which the
                    State agency received multiple complaints.21 Despite numerous
                    complaint investigations and a declaration of immediate jeopardy, the
                    nursing home remained in operation. Ultimately, one of the home’s
                    residents died of heart failure after suffering from severe pressure sores.
                    In July, Rhode Island enacted the Long Term Care Reform Act of 2005
                    to strengthen oversight of the State’s nursing homes.22




 OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     5
I N T R O D        U C T              I O N 




                    METHODOLOGY
                    We based this review on 5 data sources: (1) ACTS data, (2) a file review
                    of 498 complaint records from 5 States, (3) a mail survey of the State
                    agencies’ directors, (4) a review of State agencies’ policies and
                    procedures for complaint investigations, and (5) interviews with CMS
                    regional office survey and certification staff. Appendix A contains a
                    detailed description of our methodology.
                    ACTS
                    We analyzed ACTS data for calendar year 2004 to determine the
                    percentage of complaints alleging immediate jeopardy and actual harm
                    (high) in Medicare-certified nursing homes that State agencies
                    investigated within the respective timeframes of 2 and 10 working days.
                    We also used the ACTS to determine whether State agencies were using
                    the system for required complaint data entry. Pennsylvania and
                    Washington had waivers exempting them from using the ACTS;
                    therefore, we collected and analyzed their complaint data separately.
                    We were unable to distinguish which nursing homes in Pennsylvania
                    and Washington were not Medicare-certified or Medicare-Medicaid
                    dually certified; however, only 17 complaints for both States combined
                    (out of a total of 3,197 immediate jeopardy and actual harm (high)
                    complaints in these States) were not investigated within the
                    2- and 10-day timeframes for immediate jeopardy and
                    actual harm (high).

                    We conducted onsite reviews of 498 nursing home complaint files in the
                    State agencies of Florida, Illinois, Louisiana, Massachusetts, and
                    Oklahoma to assess whether the State agencies followed SOM
                    guidelines for complaint intake, triage and prioritization, and followup.
                    We selected these States based on complaint volume in 2002 and 2003,
                    State Performance Standard reports, and geographic considerations.

                    We did not determine whether the State agency prioritized each
                    complaint accurately. We calculated the time that elapsed between
                    complaint receipt and investigation, assuming that the State prioritized
                    the complaint correctly.
                    Mail survey of State agency directors
                    We surveyed State agency directors in all 50 States and the District of
                    Columbia on intake, triage and prioritization, and followup of nursing
                    home complaints; feedback provided by CMS pertaining to management
                    of nursing home complaint investigations; and ACTS usage. We


 OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    6
I N T R O D        U C T              I O N


                    received completed surveys from 50 State agencies, representing a
                    response rate of 98 percent.
                    Review of policies and procedures for complaint investigations
                    We received nursing home complaint investigation policies and
                    procedures from 42 of the 51 State agencies. We reviewed these policies
                    to determine whether they followed the SOM guidelines for complaint
                    intake, triage and prioritization, and followup.
                    Interviews with CMS regional office staff
                    We used a structured interview guide to conduct telephone interviews
                    with all 10 CMS regional survey and certification branch chiefs. The
                    interviews focused on information the regional offices provided to State
                    agencies concerning management of complaint investigations, ACTS
                    training for State agencies, and the regional offices’ complaint
                    investigation oversight activities.

                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    7
F   I N D I N G          S
Δ       F I N D I N G S 



State agencies did not investigate some of the
most serious nursing home complaints within
                    SOM-required timeframes

                       In 2004, State agencies did not investigate 7 percent of complaints alleging
                       immediate jeopardy in the required 2-day timeframe
                       Nationally, State agencies did not investigate 233 of 3,467 complaints
                       alleging immediate jeopardy (7 percent) within 2 working days. (See
                       Table 1.) State agencies took more than 10 working days to
                       investigate 155 of these complaints (4 percent). The potential for
                       further harm to a nursing home’s residents makes it essential that
                       State agencies promptly investigate complaints alleging immediate
                       jeopardy onsite within the required 2-day timeframe.


                      Table 1: Timeliness of Immediate Jeopardy Complaint Investigations

                                                                   Number of Immediate Jeopardy Percentage of Immediate Jeopardy
                      Number of Workdays
                                                                        Complaints Investigated          Complaints Investigated

                      2 days or fewer                                                       3,234                               93

                      3–10 days                                                               78                                2

                      11–45 days                                                              49                                1

                      46–365 days                                                             76                                2

                      No survey                                                               30                                1

                          Total                                                             3,467                          100*
                      *Data may not add to 100 because of rounding.

                      Source: Office of Inspector General Analysis of ACTS and State complaint data, 2005.





                       State-level analysis of the data showed that 27 State agencies did not
                       investigate all of their complaints alleging immediate jeopardy within
                       2 working days.23 Eight State agencies did not investigate more than
                       20 percent of their complaints alleging immediate jeopardy within the
                       2-day timeframe. Mississippi did not investigate 93 percent of
                       complaints alleging immediate jeopardy within 2 working days.
                       Mississippi also accounts for 67 of the 76 immediate jeopardy
                       complaints nationwide that State agencies investigated more than
                       45 days after complaint receipt.



    OEI-01-04-00340    N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                                   8
F   I N D I N G         S


                      In 2004, State agencies did not investigate 27 percent of complaints alleging
                      actual harm (high) in the required 10-day timeframe
                      In 2004, complaints alleging actual harm (high) accounted for 44 percent
                      of complaints in the ACTS database. Because of their severity, the SOM
                      requires State agencies to investigate complaints alleging actual harm
                      (high) onsite within 10 working days of complaint receipt. The
                      2004 complaint data show that, nationwide, State agencies did not
                      investigate 8,398 of 30,588 complaints (27 percent) alleging actual harm
                      (high) within this timeframe. (See Table 2.) As an example of a complaint
                      alleging actual harm (high), one State agency assigned actual harm (high)
                      when a complainant alleged that a family member’s nursing home failed to
                      treat her urinary tract infection, locked her in a dark room, and then
                      dropped her in the bathroom, fracturing her arm and injuring her knee.
                      Even based on the weaker State Performance Standard of investigating all
                      complaints within 20 working days, State agencies did not investigate all
                      complaints alleging actual harm (high) timely. State agencies took more
                      than 20 working days to investigate 5,437 of these complaints (18 percent).

                      Table 2: Timeliness of Actual Harm (High) Complaint Investigations
                                                                              Number of Actual Harm
                                                                                                       Percentage of Actual Harm (High)
                      Number of Workdays                                         (High) Complaints
                                                                                                               Complaints Investigated*
                                                                                        Investigated
                      10 days or fewer                                                       22,190                                 73

                      11–15 days                                                              1,822                                  6

                      16–20 days                                                              1,139                                  4

                      21–24 days                                                                699                                  2

                      25–45 days                                                              1,943                                  6

                      46–365 days                                                             2,422                                  8

                      No survey                                                                 373                                  1

                            Total                                                            30,588                                100
                      *Percentages are rounded.

                      Source: Office of Inspector General Analysis of ACTS and State complaint data, 2005.





                      The 2004 data show that 46 State agencies did not investigate all of
                      their complaints alleging actual harm (high) within 10 working days.24
                      While 24 of these State agencies investigated more than 90 percent of
                      complaints alleging actual harm (high) within 10 working days, some
                      State agencies fell considerably short of the 10-day standard. Eleven
                      State agencies did not investigate over 50 percent of complaints alleging
                      actual harm (high) within 10 working days. For example, Maryland did

    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                                            9
F   I N D I N G         S


                      not investigate 66 percent of complaints alleging actual harm (high)
                      within 10 working days. In addition, 24 State agencies took more than
                      45 working days to investigate at least 1 complaint alleging actual harm
                      (high), and 5 of these State agencies took more than 45 working days to
                      investigate at least 200 of their complaints alleging actual harm (high).
                      Appendix B presents 2004 data concerning timeliness of complaint
                      investigations for every State agency.
                      CMS regional offices and State agencies report that staff shortages and
                      insufficient training hinder timely nursing home complaint investigations
                      Twenty-two State agencies and 9 of the 10 CMS regional offices cited
                      insufficient State agency staffing as a major barrier to timely complaint
                      investigations. Seven CMS regional offices reported that State agencies
                      in their regions have difficulty recruiting and retaining qualified staff.
                      Nursing home complaint investigations require both clinical and
                      regulatory knowledge. Staff who lack these skills may have difficulty
                      completing investigations timely and appropriately. Officials at State
                      agencies and CMS regional offices explained that a rise in complaint
                      volume, high staff turnover, and the demands of higher-priority State
                      agency tasks (such as nursing home recertification surveys) all
                      contribute to insufficient complaint investigation staffing levels at the
                      State agencies.

                      CMS regional offices and State agencies identified two types of State
                      agency training limitations that hinder timely complaint investigations.
                      First, 39 State agencies reported a need for additional ACTS training to
                      make the system a more useful complaint management tool. CMS
                      regional offices and State agencies explained that sufficient ACTS
                      training is crucial because small data errors create time-consuming
                      data problems. Second, 12 State agencies reported a need for additional
                      staff training on CMS complaint investigation policy, particularly
                      regarding complaint prioritization.25




    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    10
  F   I N D I N G         S


While the ACTS shows potential for managing
                                                             In addition to capturing required
complaints, State agencies have not taken full               complaint data, the ACTS enables
                    advantage of this system                 State agencies to manage complaint
                        investigation information, schedule surveys, generate letters to
                        complainants and nursing homes, and create reports related to
                        complaint investigation performance. Despite these capabilities,
                        21 State agencies reported operating their own complaint system in
                        addition to the ACTS. State agencies that maintain separate systems
                        say they do so to fulfill State licensure requirements, State regulations,
                        and State reporting needs since, to date, the ACTS is unable to
                        accommodate these needs. As a result, these State agencies enter the
                        same complaint data into two systems: their own and the ACTS.

                        Technical problems with the ACTS hinder its use as a complaint
                        management tool. First, State agencies reported that using the ACTS is
                        cumbersome during complaint intake. The ACTS was designed to allow
                        State agency staff to enter intake information directly while the
                        complainant is on the phone. Notwithstanding this design, 26 State
                        agencies cited the ACTS as a barrier to collecting the necessary
                        information during complaint intake; 9 of these 26 State agencies
                        specifically mentioned that the ACTS is unreliable for real-time entry.
                        State agencies stated that intake information must be entered in a
                        certain order in the ACTS, which may not reflect the way the
                        complainant gives the information. Additionally, State agencies
                        mentioned that the ACTS becomes unavailable during upgrades and
                        can be too slow to keep up with the complainant’s comments. To deal
                        with these data entry problems, 11 State agencies reported entering
                        intake data somewhere else first and then taking additional time to
                        enter the data into the ACTS.
                        Most State agencies received ACTS training, but many reported that it
                        did not sufficiently prepare them to use the system effectively.
                        Forty State agencies reported receiving ACTS training prior to
                        implementation. While 33 of these State agencies rated the training’s
                        content as very or somewhat useful, 24 reported that they received too
                        little ACTS training. State agencies explained that the training
                        occurred too long before ACTS implementation; thus, many of the
                        trainees had forgotten the details of the training by the time CMS
                        implemented the ACTS. The only classroom training CMS offered was
                        in April 2002, which was over a year and a half prior to ACTS
                        implementation. In addition, CMS upgraded the ACTS in the period
                        between training and implementation, which made some of the training

      OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    11
 F   I N D I N G         S


                       outdated by the time of implementation. Finally, State agencies cited
                       limits with the “train the trainer” approach, whereby each State agency
                       sent at least two people to training who then tried to train the rest of
                       the State agency staff. State agencies reported problems with this
                       training method when trained persons were unable to convey the
                       information to the rest of the staff or left the State agency.

                       To address the need for more ACTS guidance, CMS convenes a national
                       ACTS workgroup. Representatives from State agencies, CMS regional
                       offices, and CMS central office participate in a monthly conference call
                       to discuss updates to the system or problems they have encountered.
                       CMS has also offered Internet-based training for the States and
                       regional offices prior to each ACTS update. In addition, CMS contracts
                       with a technical support hotline that State agencies can call for
                       assistance. Of the 30 State agencies that told us they reported problems
                       to the hotline, 25 found the technical support somewhat or very useful
                       while 5 found it not useful. State agencies can also electronically post
                       suggestions for ACTS improvement and participate in scheduled
                       technical conference calls with CMS central office and regional offices.


      Most State agencies’ written policies and                State agencies’ policies and
    procedures generally incorporate the SOM;                  procedures do not incorporate
however, those policies do not incorporate all of              several SOM guidelines
                          the SOM’s guidelines                 pertaining to intake, triage and
                                                               prioritization, and followup.
                       While all 42 State agencies’ policies and procedures we received
                       specifically listed some of the intake items addressed in the SOM, only
                       5 State agencies require the collection of all the suggested intake items.
                       The items most frequently absent concern information that the State
                       agencies should provide to the complainant. For example, fewer than
                       half of the State agencies direct intake staff to determine the
                       complainant’s expectations for the complaint or to provide the
                       complainant with State agency complaint policies, including timeframes
                       and expected actions, or with specific contact information, all of which
                       the SOM addresses.

                       Most State agencies’ policies, triage categories, and timelines
                       incorporate the SOM guidelines. Of the 42 State agencies for which we
                       reviewed policies, almost all require that complaints alleging immediate
                       jeopardy and actual harm (high) be investigated within the
                       SOM-required timeframes. However, only 19 State agencies’ policies

     OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    12
F   I N D I N G         S


                      incorporate the SOM requirement that the agencies prioritize all
                      nonimmediate jeopardy complaints “within two working days of receipt,
                      unless there are extenuating circumstances that impede the collection of
                      relevant information.”26
                      While most of the State agencies’ policies direct their staff to send
                      follow-up letters to complainants, many of the policies provide little or
                      no detail about the required content of these letters. The SOM lists
                      several pieces of information that State agencies should convey to
                      complainants in follow-up letters. However, of the 42 policies we
                      reviewed, only 9 require that follow-up letters to complainants include
                      all of the components cited in the SOM. Conversely, seven State
                      agencies’ policies did not include any of the letter components cited in
                      the SOM.



         In a five-State file review, State agencies         Our file review of 498 nursing
                                                             home complaints that resulted in
     followed protocols for complaint intake and
                                                             an onsite survey found that State
       triage; however, many follow-up letters to
                                                             agencies generally collected
    complainants lacked meaningful information               appropriate information during
                      intake, employed qualified professionals to assign priorities to the
                      complaints, and provided the complainant and the nursing home with a
                      written report of the investigation findings.

                      Although 86 and 92 percent of complaint files included letters to the
                      nursing homes and complainants, respectively, letters sent to
                      complainants often lacked comprehensive information about the
                      complaints. The SOM lists several items to guide State agencies in the
                      preparation of follow-up letters to complainants. These elements are
                      important because, for most complainants, this is the only official
                      feedback they receive from the State agencies. Letters to complainants
                      mostly lacked references to the State agency’s decisionmaking process.
                      Table 3 shows the percentage of follow-up letters to complainants that
                      lack each of the letter items the SOM suggests State agencies include.

                      The information contained in the letters was inconsistent both across
                      and within some States. Oklahoma and Massachusetts sent
                      complainants standard letters that contained all of the SOM items. In
                      contrast, Florida’s follow-up letters varied based on which field office
                      sent them. While some letters contained all of the elements suggested
                      by the SOM, others contained just the date the State agency conducted
                      the survey and whether the State agency cited deficiencies.

    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S    13
F   I N D I N G         S           



                      Table 3: Percentage of Follow-Up Letters in the Five States That
                      Lacked Information Listed in the SOM
                                                                                                            Letters to
                      Letter Items Cited by the SOM                                               Complainant Missing
                                                                                                                 Item
                                                                                                                         (n=327*)

                      Acknowledge the complainant's concern                                                                   47


                      Summarize the investigation methods                                                                     50


                      Provide the date of investigation                                                                       28


                      Discuss the State agency's decisionmaking process                                                       27


                      Provide a summary of the State agency's findings                                                         9

                      *Due to nursing home self-reports and anonymous complaints, 171 of the 498 complaints do
                      not include a complainant letter.

                      Source: Office of Inspector General analysis of State agency nursing home complaint files, 2005.




    CMS oversight of nursing home complaint
                     investigations is limited

                      CMS’s State Performance Standard emphasis for nursing home complaints
                      is not consistent with SOM requirements for complaints alleging actual
                      harm (high)
                      While the State Performance Standard emphasis for complaints alleging
                      immediate jeopardy reflects the SOM requirement, its emphasis for
                      complaints alleging actual harm (high) has changed since 2002 and is
                      presently inconsistent with and weaker than the SOM requirement. The
                      2004–2005 State Performance Standard emphasis for complaints alleging
                      actual harm (high) is more lenient than both the SOM’s requirement of
                      investigating complaints alleging actual harm (high) within 10 working
                      days and prior State Performance Standard emphases for these
                      complaints. The State Performance Standard emphasis for complaints
                      alleging actual harm (high) no longer measures whether State agencies
                      investigate all complaints alleging actual harm (high) within the SOM
                      requirement of 10 working days. In 2002 and 2003, the emphasis for
                      complaints alleging actual harm (high) measured whether State agencies
                      investigated 100 percent and 95 percent of complaints alleging actual
                      harm (high), respectively, within 10 working days. (See the box below.) In
                      fiscal year 2004, the emphasis changed to measure whether State agencies


    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                                            14
F   I N D I N G         S


                      investigated all complaints alleging actual harm (high) within an average
                      of 10 working days, with all complaints completed within 20 working
                      days.27


                        CMS’s State Performance Standard Emphases for Complaints Alleging
                        Actual Harm (High), 2002–2005

                        2002: The State agency triages and initiates investigation of 100 percent of the
                        complaints it receives alleging or involving actual harm (high) to individuals
                        consistent with CMS and State policy.

                        2003: The State agency investigates 95 percent of the complaints about Medicare-
                        and Medicaid-certified facilities it receives alleging or involving actual harm (high) to
                        residents consistent with CMS and State policy.

                        2004: The State agency investigates all complaints about long term care Medicare-
                        and Medicaid-certified facilities it receives alleging or involving actual harm (high) to
                        individuals within an average of 10 working days, with all complaints completed
                        within 20 working days (long term care only).

                        2005: For Medicare- and Medicaid-certified nursing homes, the State agency
                        initiates an investigation for all complaints and those incidents that require a Federal
                        onsite survey alleging a higher level of actual harm within an average of 10 working
                        days, with all onsite investigations completed by 20 working days. For fiscal year
                        2005, measuring the 20-working-day completion is in a developmental stage (nursing
                        homes only).
                      Source: Office of Inspector General analysis of CMS State Agency Performance Review Standards, 2005.


                      Changes to the State Performance Standard emphases also limit CMS’s
                      ability to track State agency performance over time. In addition, the
                      weakening of this standard can mask deteriorating State agency
                      performance over time. For example, a State agency that failed to meet
                      this emphasis in 2002 could meet the 2004 standards while performing
                      worse in 2004 than in 2002.
                      CMS regional offices conduct few FOSSs
                      The FOSS provides CMS regional offices with a valuable oversight tool
                      for nursing home complaint investigations. However, the SOM states
                      that State survey agencies should provide CMS with at least 2 weeks’
                      notice of all complaint investigations. Because this 2-week period
                      exceeds the investigation timeframes for complaints alleging immediate
                      jeopardy and actual harm (high), such advance scheduling hinders
                      regional offices from conducting the FOSSs for the most serious nursing
                      home complaints.28
                      Overall, CMS regional offices conduct few FOSSs of complaint
                      investigations. Nine of the ten CMS regional offices conducted FOSSs

    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                                     15
F   I N D I N G 
S


                      for nursing home complaint investigations in 2004. However, regional
                      offices reported conducting the FOSS in only half of the States in their
                      region. Five regional offices reported they would like to conduct more of
                      these surveys.
                      Many CMS regional offices do not follow up formally on State Performance
                      Standard Reviews until the subsequent performance review
                      All 10 CMS regional offices require State agencies to submit a plan of
                      correction when the agency fails to meet a performance standard.
                      However, six regional offices do not conduct any additional followup on
                      the performance reviews until the subsequent annual performance
                      review, a year after the State agency fails to meet a performance
                      standard. Two CMS regional offices report that although they do not go
                      onsite for formal followup, they do evaluate midyear data samples from
                      the State agencies and require State agencies that fail to meet
                      performance standards to provide performance updates between
                      performance reviews.
                      Some CMS regional offices lack sufficient expertise in the ACTS to help
                      State agencies or to use it for oversight
                      The ACTS equips CMS to examine complaint investigations in detail
                      and to assess State agency actions. However, 6 of the 10 CMS regional
                      offices reported that they lacked sufficient staff with enough knowledge
                      about the ACTS to provide assistance to the State agencies.

                      CMS regional offices cite staffing shortages and insufficient training as
                      reasons for the lack of ACTS expertise within their offices. Three regional
                      offices report that ACTS training did not prepare staff to use the ACTS for
                      oversight functions, such as running reports or troubleshooting State
                      agencies’ data entry, because the training primarily covered data entry
                      rather than complaint management. Five regional offices cite staff
                      turnover and shortage for the lack of ACTS expertise within their offices.
                      Four of these regions report that the only person proficient with the ACTS
                      in their office is also responsible for using it to oversee other provider
                      types and has insufficient time to focus on nursing home complaint
                      investigations.




    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   16
Δ    R E C O M M E N D A T I O N S                                                     




                  The nursing home complaint investigations process continues to have
                  problems. Many State agencies did not meet investigation timeframes
                  for the most serious complaints, State policies and file reviews indicate
                  that State agencies did not incorporate some aspects of the investigation
                  process suggested in the SOM, and oversight by CMS regional offices is
                  limited. In addition, State agencies are not fully utilizing the ACTS
                  despite its potential for complaint management. To address these
                  problems, we recommend that CMS take the steps listed below.
                  Strengthen the oversight of nursing home complaint investigations by:

                          Requiring State agencies to meet the 10-day timeframe for investigating
                          complaints alleging actual harm (high)
                          CMS uses the State Performance Standard to hold State agencies
                          accountable for the timeliness of their complaint investigations, yet
                          the performance standard for complaints alleging actual harm (high)
                          is more lenient than the 10-day standard required by the SOM. The
                          2004 and 2005 State Performance Standard emphasis for complaints
                          of actual harm (high) requires that State agencies initiate
                          investigations for complaints alleging a higher level of actual harm
                          within an average of 10 working days, with all onsite investigations
                          completed by 20 working days. CMS should make the State
                          Performance Standard timeframe consistent with the SOM. This
                          would strengthen the State Performance Standard emphasis for
                          complaints alleging actual harm (high) in nursing homes by
                          measuring whether State agencies investigate 100 percent of these
                          complaints within 10 working days.
                          Conducting meaningful followup to the State Performance Standard
                          Reviews
                          Many CMS regional offices reported that they generally do not
                          follow up with the State Performance Standard failures until the
                          next performance review, a year later, despite the fact that the
                          annual State Performance Standard is CMS’s primary oversight
                          mechanism for State agencies’ nursing home complaint
                          investigations. Rather than waiting until the next annual
                          performance review, CMS regional offices should increase oversight
                          on the State Performance Standard, which includes the timely
                          investigation of complaints that allege both immediate jeopardy and
                          actual harm (high) and the proper prioritization and investigation of
                          complaints. This could be accomplished by following up throughout



OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       17
R   E C O        M M E N D A T                           I O N                S


                              the year, either through onsite visits or regular checks of the State
                              agency’s ACTS data.
                              Eliminating the 2-week advance notice for FOSS contained in the SOM to
                              allow regional offices the option of overseeing complaint investigations
                              for the most serious nursing home complaints
                              The FOSS provides CMS regional offices with a valuable oversight
                              tool for nursing home complaint investigations. The SOM, however,
                              states that State survey agencies must provide CMS with at least
                              2 weeks’ notice of all scheduled surveys. Because of this provision, it
                              is unlikely that CMS can conduct the FOSS for complaints alleging
                              immediate jeopardy and actual harm (high) because of the
                              respective 2- and 10-day investigation timeframes. CMS should
                              eliminate this advance notification to allow its regional offices to
                              more fully oversee State agencies’ investigations of the most severe
                              complaints.
                      Offer additional ACTS training to its regional offices, as well as to State
                      agencies
                      The ACTS has the potential to improve complaint management and
                      oversight at the State agencies and CMS regional offices. However,
                      both groups reported insufficient ACTS training to fully utilize the
                      system. CMS should offer the State agencies further training targeted
                      to complaint management. In addition, CMS should continue to train
                      its regional office staff on the ACTS functions specifically related to
                      overseeing State agencies.

                      To help minimize the time State agencies spend manually entering
                      complaint information into both the ACTS and State-specific complaint
                      tracking systems, CMS should provide specific training regarding how
                      State agencies can use ACTS features designed to download information
                      into a State system or capture State-required information.


                      AGENCY COMMENTS
                      In its comments on the draft report, CMS concurred with three of our
                      four recommendations. CMS concurred with our recommendation to
                      strengthen the oversight of nursing home complaint investigations by
                      requiring State agencies to meet the 10-day timeframe for investigating
                      complaints alleging actual harm (high). While CMS outlined specific
                      steps it would take to address this recommendation, such as clarifying
                      the language in the State Performance Standard for 2007, it also noted



    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S        18
                  that the increase in nursing home complaints as well as resource
                  limitations affect its ability to meet these performance expectations.

                  CMS concurred with our recommendation to conduct meaningful
                  followup to the State Performance Standards and listed steps it is
                  implementing to enhance followup. These steps include strengthening
                  regional office followup, particularly in States with significant
                  performance failures; holding face-to-face meetings with States at least
                  twice per year, with performance as a prominent agenda item; making
                  performance standard fulfillment a significant feature of CMS’s annual
                  National Leadership Summit; and ensuring that ACTS produces reports
                  that provide feedback to States on their performance.

                  CMS also concurred with our recommendation to offer additional
                  training to CMS regional offices as well as State agencies. The agency
                  highlighted a pilot program that would evaluate the extent to which the
                  ASPEN information system is integrated with office business practices
                  and other State operations. CMS noted that while it recognizes the
                  potential benefits of using ACTS to support States’ management, ACTS
                  is a Federal system and was not intended to support all States’ possible
                  uses.

                  CMS did not concur with our recommendation to eliminate the 2-week
                  advance notice for the FOSS set forth in the SOM to allow regional
                  offices the option of overseeing complaint investigations for the most
                  serious nursing home complaints. CMS does not consider this advance
                  notice to be an important barrier to conducting a FOSS survey and
                  indicated it could not assume the added administrative costs and
                  challenges under the current resource constraints. CMS also notes that
                  regional offices have the authority to conduct onsite visits at nursing
                  homes at any time and for any reason. The full text of CMS’s comments
                  is in Appendix C.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  With respect to our third recommendation, we remain concerned that
                  the 2-week advance notice hinders CMS’s ability to conduct FOSS for
                  complaints alleging immediate jeopardy or actual harm (high). The
                  2-week advance notice requirement limits the effectiveness of CMS
                  oversight of State agencies’ investigations of nursing homes. We
                  encourage CMS to develop a policy that balances the resource
                  constraints and the logistical challenge of scheduling surveys in a tight



OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       19
                  timeframe with the need for CMS to monitor State agency
                  investigations of the most serious nursing home complaints.




OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   20
Δ   E N D N O T E S                                   





                      See Department of Health and Human Services (HHS), Office of
                      1

                  Inspector General (OIG), Office of Audit Services, Final Report, “Survey
                  of Physical and Sexual Abuse in Alabama Nursing Homes,”
                  A-04-03-07027, June 2004; Government Accountability Office (GAO),
                  “Nursing Homes: Prevalence of Serious Quality Problems Remains
                  Unacceptably High, Despite Some Decline,” GAO/03-1016T, July 2003.

                      2   42 CFR § 488.308.

                    Centers for Medicare & Medicaid Services (CMS), “State Operations
                      3

                  Manual,” Chapter 5—Complaint Procedures.

                      We refer in this report to provisions of the State Operations Manual
                      4

                  as “requirements” even though for two of the States reviewed,
                  Pennsylvania and Washington, we were unable to distinguish which
                  nursing homes were certified for Medicare and which were certified for
                  Medicaid only.

                     CMS, “Guidelines to Support Management of Complaints and
                      5

                  Incidents and the National Implementation of the ASPEN
                  Complaints/Incidents Tracking System,” S&C-04-09, November 13, 2003.

                     In June 2005, CMS released another memorandum to State agency
                      6

                  directors that offered guidance on complaint allegation intake and triage.
                  The memorandum offers specific intake questions for collecting
                  comprehensive information as well as criteria for making triage
                  assessments. CMS based the memorandum on complaint management
                  practices shared by State agencies. However, because these are not
                  statutory requirements, State agencies are not required to incorporate
                  the practices from the memorandum.

                     CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      7

                  (Section 5010A).

                     CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      8

                  (Section 5010B).

                     CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      9

                  (Section 5030A); 42 CFR § 489.3.




OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S         21
                      CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      10

                  (Section 5030B).

                      CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      11

                  (Section 5040).

                      GAO, “Nursing Homes: Prevalence of Serious Quality Problems
                      12

                  Remains Unacceptably High, Despite Some Decline,” GAO/03-1016T,
                  July 2003.

                      CMS, “FY 2004 State Performance Review Protocol Guidance,”
                      13

                  October 2003.

                      CMS, “FY 2004 State Performance Review Protocol Guidance,”
                      14

                  October 2003, p. 42.

                      To date, CMS has waived this requirement for two States
                      15

                  (Pennsylvania and Washington).

                      16 CMS,
                           “State Operations Manual,” Chapter 4—Federal Oversight
                  Support Survey (FOSS) Expectations and Responsibility (Section 4158).

                      GAO, “Nursing Homes: Additional Steps Needed to Strengthen
                      17

                  Enforcement of Federal Quality Standards,” HEHS-99-46, March 18,
                  1999.

                      GAO, “ Nursing Homes: Complaint Investigation Processes Often
                      18

                  Inadequate to Protect Residents,” GAO-HEHS-99-80, March 22, 1999.

                      GAO, “Nursing Homes: Prevalence of Serious Quality Problems
                      19

                  Remains Unacceptably High, Despite Some Decline,” GAO/03-1016T,
                  July 2003.

                      HHS, OIG, Office of Audit Services, Final Report, “Survey of Physical
                      20

                  and Sexual Abuse in Alabama Nursing Homes,” A-04-03-07027,
                  June 2004.




OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     22
                      The Providence Journal, “Resident #1,” August 22, 2004; “Few
                      21

                  Complaints Lead to Probes of Nursing Homes,” August 23, 2004;
                  “Carcieri Calls for Stricter Nursing Home Supervision,” August 25, 2004;
                  “Nursing Home Death Stirs R.I. Officials to Find Fixes,” August 28, 2004.

                      Rhode Island General Assembly, “Press Release: Long Term Care
                      22

                  Reform Act of 2005 Signed Into Law,” Rhode Island, July 5, 2005.

                     Five States (Hawaii, North Dakota, South Dakota, Virginia, and
                      23

                  Washington, D.C.) had no complaints alleging immediate jeopardy in the
                  2004 ASPEN Complaints/Incidents Tracking System (ACTS) data.
                  Pennsylvania had a waiver and is not included in 2004 ACTS data.

                     South Dakota had no complaints alleging actual harm in the
                      24

                  2004 ACTS data. Pennsylvania had a waiver and is not included in 2004
                  ACTS data.

                      After our survey, CMS offered additional guidance to State agencies
                      25

                  on complaint prioritization and intake in a memorandum released in
                  June 2005. See CMS, “Promising Practices to Support the Intake of
                  Nursing Home Complaints,” S&C-05-31, June 9, 2005.

                      CMS, “State Operations Manual,” Chapter 5—Complaint Procedures
                      26

                  (Section 5020).

                      Centers for Medicare & Medicaid Services, “FY 2004 State
                      27

                  Performance Review Protocol Guidance,” p. 10.

                     CMS, “State Operations Manual,” Chapter 4—Federal Oversight
                      28

                  Support Survey (FOSS) Expectations and Responsibility (Section 4158).




OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S     23
Δ   A P P E N D I X                                 A            




                  METHODOLOGY
                  We based this review on 5 data sources: (1) ASPEN
                  Complaints/Incidents Tracking System (ACTS) data, (2) a file review of
                  498 complaint records from 5 States, (3) a mail survey of the State
                  agencies’ directors, (4) a review of 42 State agencies’ policies and
                  procedures, and (5) interviews with the Centers for Medicare &
                  Medicaid Services (CMS) regional office survey and certification staff.
                  ACTS
                  We analyzed ACTS data for calendar year 2004 to determine the
                  percentage of complaints alleging immediate jeopardy and actual harm
                  (high) in Medicare-certified nursing homes that State agencies
                  investigated within the respective 2- and 10-working day timeframes.
                  We also analyzed ACTS data to determine whether State agencies were
                  using ACTS for required complaint data entry. We received ACTS data
                  for all State agencies from CMS on June 16, 2005. These data included
                  208,690 records. We removed duplicate records and records in which
                  the State agency entered a complaint receipt date after December 31,
                  2004. We then collapsed records that had the same complaint intake
                  identification number but multiple allegation categories down to one
                  record. We also excluded 1,406 complaints because the date
                  investigated was prior to the date received. The final ACTS database
                  included 68,826 complaint records. These data included a total of
                  35,800 immediate jeopardy and actual harm (high) complaints.

                  Pennsylvania and Washington had waivers exempting them from using
                  the ACTS, so we collected and analyzed their complaint data separately
                  from ACTS data. Like our ACTS analysis, we included both complaints
                  and incidents for calendar year 2004 for all types of nursing homes.
                  Though the State Operations Manual (SOM) requirements are binding
                  on Medicare-certified and Medicare-Medicaid dually certified nursing
                  homes, we were unable to distinguish which nursing homes in these two
                  States were certified only for Medicaid. However, only 17 complaints
                  for Pennsylvania and Washington combined (out of a total of 3,197
                  immediate jeopardy and actual harm (high) complaints in these States)
                  were not investigated within the 2- and 10-day timeframes for
                  immediate jeopardy and actual harm (high).

                  We analyzed the fields in the ACTS that the SOM requires State
                  agencies to enter for every complaint. We did not verify the accuracy of
                  the information in the fields, but rather whether the State agency

OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   24
A   P   P E N D       I X             ~           A


                      populated them. We also used SAS® to calculate whether State agencies
                      met the required timeframes for complaints prioritized as immediate
                      jeopardy and actual harm (high). Excluding weekend days and Federal
                      holidays, we calculated the number of days from the date the State
                      agency received the complaint to the date the complaint survey started.
                      (We did not exclude State holidays from our analysis.) This allowed us
                      to determine whether State agencies met the Federal requirements that
                      all complaints alleging immediate jeopardy be investigated within
                      2 working days and all complaints alleging actual harm (high) within
                      10 working days.
                      File review
                      For our file review, we drew a sample of 500 nursing home complaints
                      from a purposive sample of 5 States: Florida, Illinois, Louisiana,
                      Massachusetts, and Oklahoma. From the Online Survey Certification
                      and Reporting (OSCAR) system, we randomly selected 100 complaints
                      from each State that were reported in calendar year 2004. We used the
                      OSCAR system to select the complaints because ACTS data were not
                      available to us until June 2005. We selected our sample in February
                      2005 and conducted the file reviews at the State agencies in March,
                      April, and May 2005. We excluded 2 complaint files that did not pertain
                      to Federal requirements, resulting in a review of 498 complaint files.

                      We used several criteria to select the five States. We selected States
                      that had a medium or high volume of complaints in 2002 and 2003. Due
                      to travel constraints, we limited the file review to States with centrally
                      maintained complaint files. Additionally, we selected States with
                      different levels of performance on the three State Performance
                      Standards’ emphases pertaining to nursing home complaint
                      investigations. Two States we chose met all three emphases in
                      2002 and 2003, one did not meet any, and the other two States met only
                      one emphasis in 2002 or 2003.

                      We reviewed the files using a protocol we developed and entered the
                      data into a Microsoft Access® database. Our protocol followed CMS’s
                      SOM guidelines for complaint intake, triage and prioritization, and
                      complainant and nursing home followup. We evaluated complaint files
                      for completeness and conformity with SOM procedural guidelines.
                      However, we did not assess whether State agency staff made
                      appropriate triage assignments. While onsite at the State agencies, we
                      interviewed managers, surveyors, and other relevant personnel to learn



    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   25
A   P   P E N D       I X             ~           A


                      more about complaint management in each State. We analyzed data
                      from the file reviews using SAS®.
                      Mail survey of State agency directors
                      We surveyed State agency directors in the 50 States and the District of
                      Columbia on nursing home complaint investigations. Our survey
                      solicited information in the following areas: complaint management,
                      feedback provided by CMS pertaining to management of nursing home
                      complaint investigations, and ACTS use. We also included open-ended
                      sections for additional comments and to solicit further explanations for
                      some closed-ended answers. Before sending the survey, we solicited
                      comments from CMS central office officials and a State survey director
                      about the survey’s content and clarity. We incorporated their feedback
                      into the final survey.

                      To ensure a high response rate, in March 2005 we sent each State
                      agency director in all 50 States and the District of Columbia an
                      introductory letter explaining the survey and the review. Later in the
                      month, we mailed the survey. In April 2005, we sent a follow-up
                      mailing to those who had not responded. In May 2005, we called the
                      State agencies that had not yet replied. We received completed surveys
                      from 49 State agencies and the District of Columbia for a response rate
                      of 98 percent. Tennessee did not respond to the survey.
                      Review of policies and procedures for complaint investigations
                      In conjunction with the survey of State agency directors, we requested
                      State nursing home complaint investigation policies and procedures.
                      We received documents from 46 State agencies. Of these, two State
                      agencies responded that they rely on the SOM for nursing home
                      complaint investigations and do not maintain separate policies and
                      procedures. Two additional State agencies sent only CMS documents
                      and did not offer additional State-specific policies and procedures. We
                      excluded these States and based our analysis on 42 State agencies’
                      documents.

                      We reviewed the policies and procedures using a protocol based on
                      CMS’s SOM guidelines for complaint intake, triage and prioritization,
                      and followup. The review protocol includes 58 SOM guidelines
                      regarding the information to be collected during intake, the
                      establishment of triage categories and response timelines, and the
                      information included in follow-up letters to complainants. We reviewed
                      each State agency’s documents and noted whether written State agency
                      policies addressed and incorporated these CMS guidelines.

    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   26
A   P   P E N D       I X             ~           A


                      Interviews with CMS regional office staff
                      We used a structured interview guide to conduct telephone interviews
                      with the 10 CMS regional survey and certification branch chiefs. The
                      interviews focused on information the regional offices provided to State
                      agencies concerning management of complaint investigations, ACTS
                      training for State agencies, and the regional offices’ complaint
                      investigation oversight activities. Before the interviews, we solicited
                      comments from the CMS central office and a CMS regional office branch
                      chief about the interview guide’s content and clarity. We incorporated
                      their feedback into the final interview guide.

                      We conducted the interviews in June 2005. We asked the CMS regional
                      offices to provide us with any documentation they had from State
                      agency training activities; oversight actions; and any formal
                      communications the regional office had with the State agencies,
                      including feedback on State agency performance. Prior to each
                      interview, we sent the interview guide to the CMS regional survey and
                      certification branch chiefs and invited them to ask any regional staff
                      members with expertise in the covered areas to participate in the
                      interviews. At least two OIG staff participated in each interview.




    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   27
Δ       A P P E N D I X                                          B 

        Table 4: 2004 State Agency Complaint Investigation Timeliness for Complaints Alleging
                            Immediate Jeopardy and Actual Harm (High)
State                           Immediate Jeopardy Complaints                                     Actual Harm (High) Complaints
                          Percentage Not          Total Immediate         Percentage Not
                                                                                           Total Actual Harm (High)
                       Investigated Within Jeopardy Complaints        Investigated Within
                                                                                                 Complaints in 2004
                          2 Working Days                   in 2004      10 Working Days
Alabama                               0%                        16                  10%                         289
Alaska                                   0                       2                     17                         6
Arizona                                  7                      29                     83                       587
Arkansas                                 0                      53                     76                       569
California                               5                     173                     27                       903
Colorado                               16                       37                     20                       224
Connecticut                            33                        9                     26                        78
Delaware                               25                        4                     39                        28
Florida                                  7                     153                      3                       896
Georgia                                  0                      30                      3                       933
Hawaii                               N/A*                        0                     32                        19
Idaho                                    0                      16                      0                        55
Illinois                                 2                      62                      1                     1,285
Indiana                                  1                      89                      3                       604
Iowa                                     3                      66                      4                       701
Kansas                                   2                     101                      8                       143
Kentucky                                 0                      41                      5                       463
Louisiana                              15                       53                     16                       339
Maine                                  21                       14                      4                       196
Maryland                               33                        6                     66                       804
Massachusetts                          25                        4                      1                       643
Michigan                                 0                      98                     71                       965
Minnesota                              11                       19                      2                       260
Mississippi                            93                      131                     98                       461
Missouri                                 0                     168                     12                     2,167
Montana                                  0                       7                     56                         9
Nebraska                                 0                      25                      3                       129
Nevada                                   0                      10                     17                       547
New Hampshire                            0                       5                      0                        14
New Jersey                               8                      76                      1                       145
New Mexico                             33                        6                     81                       156
New York                                 4                     255                     24                     2,725
North Carolina                           2                     200                      7                       849
North Dakota                         N/A*                        0                   100                          1
Ohio                                     1                     100                      6                       973
Oklahoma                                 2                     258                     56                       552
Oregon                                   0                      14                     12                       217
Pennsylvania                           0**                      40                      0                     2,095
Rhode Island                             0                       1                     43                         7
South Carolina                         17                       46                     90                       653
South Dakota                         N/A*                        0                  N/A*                          0
Tennessee                                6                     205                      4                       636
Texas                                    2                     497                     50                     5,731
Utah                                     0                      56                      0                        68
Vermont                                25                        8                     39                        75
Virginia                             N/A*                        0                     19                       138
Washington                             0**                     213                      1                       849
Washington D.C.                      N/A*                        0                      0                         3
West Virginia                            0                       6                      7                       134
Wisconsin                                2                      62                      8                       224
Wyoming                                  0                       3                     25                        40
*The State agency entered no complaints for this category into ACTS for calendar year 2004.
**Pennsylvania and Washington had waivers from ACTS in 2004. Data for these States come from the State
agencies' complaint systems.
Source: Office of Inspector General analysis of 2004 ACTS data, 2005.

OEI-01-04-00340              N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S                                   28
A   P   P E N D       I X             ~           A
Δ       A P P E N D I X                                 C



                      Agency Comments




    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   29 

A   P   P E N D       I X             ~           C             





    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   30 

A   P   P E N D       I X             ~           C             





    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   31 

A   P   P E N D       I X             ~           C             





    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   32 

A   P   P E N D       I X             ~           C             





    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S   33 

A   P   P E N D       I X             ~           A
Δ       A C K N O W L E D G M E N T S                                                      


                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Danielle Fletcher, Team Leader
                      Maria Maddaloni, Project Leader

                      Rosemary Borck, Program Analyst

                      Norman Han, Program Analyst

                      Sandy Khoury, Program Specialist

                      Barbara Tedesco, Mathematical Statistician




    OEI-01-04-00340   N U R S I N G H O M E C O M P L A I N T I N V E S T I G AT I O N S       34
